App. 1
APPENDIX
Surety Laws
District of Columbia
If any person shall go armed with a dirk, dagger, sword,
pistol, or other offensive and dangerous weapon, without reasonable cause to fear an assault or other injury
or violence to his person, or to his family or property,
he may, on complaint of any person having reasonable
cause to fear an injury or breach of the peace, be required to find sureties for keeping the peace for a term
not exceeding six months, with the right of appealing
as before provided.
Of Proceedings to Prevent and Detect the Commission
of Crimes, ch. 141, § 16, in THE REVISED CODE OF THE
DISTRICT OF COLUMBIA 570 (Washington, A. O. P. Nicholson 1857).
Maine
Any person, going armed with dirk, dagger, sword, pistol, or other offensive and dangerous weapon, without
a reasonable cause to fear an assault on himself, or any
of his family or property, may, on the complaint of any
person having cause to fear an injury or breach of the
peace, be required to find sureties for keeping the
peace for a term, not exceeding one year, with the right
of appealing as before provided.
Of Proceedings for Prevention of Crimes, ch. 169, § 16,
in THE REVISED STATUTES OF THE STATE OF MAINE 707,
709 (Augusta, William R. Smith & Co. 1841).

App. 2
Massachusetts
If any person shall go armed with dirk, dagger, sword,
pistol, or other offensive and dangerous weapon, without reasonable cause to fear an assault or other injury,
or violence to his person, or to his family or property,
he may, on complaint of any person having reasonable
cause to fear an injury, or breach of the peace, be required to find sureties for keeping the peace, for a term
not exceeding six months, with the right of appealing
as before provided.
Of Proceedings to Prevent the Commission of Crime,
ch. 134, § 16, in THE REVISED STATUTES OF THE COMMONWEALTH OF MASSACHUSETTS 748, 750 (Boston, Dutton &
Wentworth 1836).
Michigan
If any person shall go armed with a dirk, dagger, sword,
pistol, or other offensive and dangerous weapon, without reasonable cause to fear an assault or other injury,
or violence to his person, or to his family or property,
he may, on complaint of any person having reasonable
cause to fear an injury or breach of the peace, be required to find sureties for keeping the peace, for a term
not exceeding six months, with the right of appealing
as before provided.
Of Proceedings to Prevent the Commission of Crime,
ch. 162, § 16, in THE REVISED STATUTES OF THE STATE OF
MICHIGAN 690, 692 (Detroit, Bagg & Harmon 1846).

App. 3
Minnesota
If any person shall go armed with a dirk, dagger,
sword, pistol or pistols, or other offensive or dangerous
weapon, without reasonable cause to fear an assault or
other injury, or violence to his person, or to his family,
or property, he may, on complaint of any other person
having reasonable cause to fear an injury or breach of
the peace, be required to find sureties for keeping the
peace, for a term not exceeding six months, with the
right of appealing as before provided.
Of Proceedings to Prevent the Commission of Crimes,
ch. 112, § 18, in THE REVISED STATUTES OF THE TERRITORY OF MINNESOTA 526, 528 (Saint Paul, James M.
Goodhue, 1851).
Oregon
If any person shall go armed with a dirk, dagger, sword,
pistol, or other offensive or dangerous weapon, without
reasonable cause to fear an assault, injury, or other violence to his person, or to his family or property, he
may, on complaint of any other person, having reasonable cause to fear an injury or breach of the peace, be
required to find sureties for keeping the peace for a
term not exceeding six months, with the right of appealing as before provided.
Proceedings to Prevent Commission of Crimes, ch. 16,
§ 17, in THE STATUTES OF OREGON 218, 220 (Oregon,
Asahel Bush 1854).

App. 4
Pennsylvania
If any person shall threaten the person of another to
wound, kill or destroy him or to do him any harm in
person or estate, and the person threatened shall appear before a justice of the peace, and attest, on oath
or affirmation, that he believes that by such threatening he is in danger of being hurt in body or estate, such
person so threatening as aforesaid, shall be bound over,
with one sufficient surety, to appear at the next sessions, according to law, and in the meantime to be of
his good behavior, and keep the peace toward all citizens of this commonwealth. If any person, not being an
officer on duty in the military or naval service of the
state or of the United States shall go armed with a
dirk, dagger, sword or pistol, or other offensive or dangerous weapon, without reasonable cause to fear an assault or other injury or violence to his family, person or
property, he may, on complaint of any person having
reasonable cause to fear a breach of the peace therefrom, be required to find surety of the peace as aforesaid.
Proceedings to Detect the Commission of Crimes, § 6
(1860), in A DIGEST OF THE LAWS OF PENNSYLVANIA 248,
250 (John Purdon comp., 1861).
Virginia
If any person shall go armed with any offensive or dangerous weapon, without reasonable cause to fear an assault or other injury, or violence to his person, or to his
family or property, he may be required to find sureties

App. 5
for keeping the peace for a term not exceeding twelve
months, with the right of appealing as before provided.
Of Proceedings to Prevent the Commission of Crimes,
ch. 14, § 16, 1847 Va. Acts 127, 129.
West Virginia
If any person go armed with a deadly or dangerous
weapon, without reasonable cause to fear violence to
his person, family, or property, he may be required to
give a recognizance, with the right of appeal, as before
provided, and like proceedings shall be had on such appeal.
For Preventing the Commission of Crimes, ch. 153, § 8,
in THE CODE OF WEST VIRGINIA 702, 703 (Wheeling,
John Frew 1868).
Wisconsin
If any person shall go armed with dirk, dagger, sword,
pistol or pistols, or other offensive and dangerous
weapon, without reasonable cause to fear an assault or
other injury, or violence to his person, or to his family,
or property, he may, on complaint of any other person
having reasonable cause to fear an injury, or breach of
the peace, be required to find sureties for keeping the
peace for a term not exceeding six months, with the
right of appealing as before provided.
An Act to Prevent the Commission of Crimes, § 16, in
STATUTES OF THE TERRITORY OF WISCONSIN 379, 381 (Albany, N.Y., Packard, Van Benhuysen & Co. 1839).

App. 6
Criminal Laws Restricting Carrying
Concealed Weapons in Surety States
Maine
No person shall in a threatening manner display any
firearm, slung-shot, knuckles, bowie knife, dirk, stiletto
or other dangerous or deadly weapon, nor shall wear
under his clothes or concealed about his person any
such firearm, slung-shot, knuckles, bowie knife, dirk,
stiletto or other dangerous or deadly weapon unless
first licensed so to do in the following manner.
An Act to Prohibit the Carrying of Dangerous or
Deadly Weapons Without a License, ch. 217, § 1, 1917
Me. Laws 216.
Massachusetts
Any person arrested upon the warrant of a magistrate,
issued against him for any alleged offence against the
laws of this Commonwealth, and any person committing
any criminal offence against the laws of this Commonwealth, or any breach or disturbance of the public peace,
who may, at the time of the commission of such offence,
or breach or disturbance of the public peace, be arrested
by any sheriff, deputy sheriff, constable, or police officer,
in this State, and who shall, at the time of such arrest, be
armed with any dangerous weapon, of the kind usually
called a slung shot, shall be punished by a fine not exceeding fifty dollars, or imprisonment in the common jail
or house of correction for a term not exceeding one year.
An Act in Relation to the Carrying of Slung Shot, ch.
194, § 1, 1850 Mass. Acts 401.

App. 7
Whoever when arrested upon a warrant of a magistrate issued against him for an alleged offence against
the laws of this state, and whoever when arrested by a
sheriff, deputy-sheriff, constable, police officer, or watchman, while committing a criminal offence against the
laws of this state, or a breach or disturbance of the public peace, is armed with, or has on his person, slung
shot, metallic knuckles, billies, or other dangerous
weapon, shall be punished by a fine not exceeding fifty
dollars, or by imprisonment in the jail not exceeding
one year.
1860 Mass. Acts ch. 164, § 10.
Michigan
That it shall be unlawful for any person, except officers
of the peace and night-watches legitimately employed
as such, to go armed with a dirk, dagger, sword, pistol,
air-gun, stiletto, metallic knuckles, pocket-billie, sandbag, skull-cracker, slung-shot, razor, or other offensive
and dangerous weapon or instrument concealed upon
his person.
An Act to Prevent the Carrying of Concealed Weapons,
and to Provide Punishment Therefor, ch. 317, in THE
GENERAL STATUTES OF THE STATE OF MICHIGAN 3800
(Chicago, Callaghan & Co. 1890).

App. 8
Minnesota
Every person who shall manufacture, or cause to be
manufactured, sell, keep for sale, offer, or dispose of,
any instrument or weapon of the kind usually known
as a slung-shot, sand-club, or metal knuckles; or who
shall attempt to use against another, or with intent so
to use, shall carry, conceal, or possess, any of the
weapons hereinbefore specified, or any dagger, dirk,
knife, pistol, or other dangerous weapon, shall be
guilty of a gross misdemeanor. The possession by any
person, other than a public officer, of any such weapon
concealed or furtively carried on the person shall be
presumptive evidence of carrying, concealing, or possessing with intent to use the same.
An Act to amend Section 8770, General Statutes, 1913,
Relating to the Manufacture, Sale, and Possession of
Dangerous Weapons, ch. 243, 1917 Minn. Laws 354.
Oregon
It shall be unlawful for any person to carry concealed
about his person in any manner whatever any revolver,
pistol, or other fire-arm, or any knife (other than an
ordinary pocket-knife), or any dirk or dagger, slungshot or metal knuckles, or any instrument by the use
of which injury could be inflicted upon the person or
property of any other person.
An Act to Prevent Persons from Carrying Concealed
Weapons, Feb. 18, 1885, Ore. 13th Legis. Assembly
(General Law), in THE CODES AND GENERAL LAWS OF OREGON (San Francisco, Bancroft-Whitney Co. 1887).

App. 9
Pennsylvania
Any person within the limits of the city and county of
Philadelphia, who shall carry any fire-arms, slung-shot
or other deadly weapon concealed upon his person,
with the intent therewith unlawfully and maliciously
to do injury to any other person, shall be deemed guilty
of a misdemeanor, and upon the conviction thereof,
shall be sentenced to undergo solitary confinement at
hard labor in the prison of said county for a period of
not less than one month, nor more than one year, at the
discretion of the court; and the jury trying the case may
infer such intent as aforesaid, from the fact of the said
defendant carrying any such weapons in the manner
as aforesaid.
Act of May 3, 1850, § 14, in A DIGEST OF THE LAWS
OF PENNSYLVANIA 150 (Philadelphia, Kay & Brother
1857).1
Virginia
That if any person shall hereafter habitually or generally keep or carry about his person any pistol, dirk,
bowie knife, or any other weapon of the like kind, from
the use of which the death of any person might probably ensue, and the same be hidden or concealed from
common observation, and he be thereof convicted, he
shall for every such offence forfeit and pay the sum of
not less than fifty dollars nor more than five hundred
1

An analogous statute with statewide application was passed
in 1875. Act of Mar. 18, 1875, Pub. L. No. 38 § 1.

App. 10
dollars, or be imprisoned in the common jail for a term
not less than one month nor more than six months, and
in each instance at the discretion of the jury; and a
moiety of the penalty recovered in any prosecution under this act, shall be given to any person who may voluntarily institute the same.
An Act to Prevent the Carrying of Concealed Weapons,
ch. 101, 1838 Va. Acts 76, 76–77.
City of Washington
It shall not be lawful for any person or persons to carry
or have concealed about their persons any deadly or
dangerous weapons, such as dagger, pistol, bowie knife,
dirk knife, or dirk, colt, slungshot, or brass or other
metal knuckles within the City of Washington; and any
person or persons who shall be duly convicted of so carrying or having concealed about their persons any such
weapon shall forfeit and pay upon such conviction not
less than twenty dollars nor more than fifty dollars;
which fines shall be prosecuted and recovered in the
same manner as other penalties and forfeitures accruing to the city are sued for and recovered; Provided,
That the Police officers when on duty shall be exempt
from such penalties and forfeitures.
Act of Nov. 18, 1858, in GENERAL LAWS OF THE CORPORATION OF THE CITY OF WASHINGTON 114 (Washington,
Robert A. Waters 1860).

App. 11
Wisconsin
If any person shall go armed with a concealed dirk,
dagger, sword, pistol, or pistols, revolver, slung-shot,
brass knuckles, or other offensive and dangerous
weapon, he shall, on conviction thereof, be adjudged
guilty of a misdemeanor, and shall be punished by imprisonment in the state prison for a term of not more
than two years, or by imprisonment in the county jail
of the proper county not more than twelve months, or
by fine not exceeding five hundred dollars, together
with the costs of prosecution, or by both said fine and
costs and either of said imprisonments ; and he may
also be required to find sureties for keeping the peace
and against the further violation of this act for a term
not exceeding two years : provided, that so going armed
shall not be deemed a violation of this act whenever it
shall be made to appear that such person had reasonable cause to fear an assault or other injury or violence
to his person, or to his family or property, or to any person under his immediate care or custody, or entitled to
his protection or assistance, or if it be made to appear
that his possession of such weapon was for a temporary
purpose, and with harmless intent.
An Act to Prohibit the Carrying of Concealed Weapons,
ch. 7, § 1, 1872 Wis. Sess. Law 17.

